Office of Material Loss Reviews
Report No. MLR-10-044


Material Loss Review of Florida Community
Bank, Immokalee, Florida




                                  August 2010
                                      Executive Summary

                                      Material Loss Review of Florida Community
                                      Bank, Immokalee, Florida
                                                                                       Report No. MLR-10-044
                                                                                                  August 2010

Why We Did The Audit
On January 29, 2010, the Florida Office of Financial Regulation (OFR) closed Florida Community Bank
(Florida Community), Immokalee, Florida and named the FDIC as receiver. On March 1, 2010, the FDIC
notified the Office of Inspector General (OIG) that Florida Community’s total assets at closing were
$897.8 million and the estimated material loss to the Deposit Insurance Fund (DIF) was $349.1 million.
As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, and as amended by the Dodd-
Frank Wall Street Reform and Consumer Protection Act, the OIG conducted a material loss review of the
failure of Florida Community.

The audit objectives were to (1) determine the causes of Florida Community’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.

Background
Florida Community was a state nonmember bank established in 1923 as the Bank of the Everglades,
Everglades City, Florida. In 1966, the bank changed its name to First Bank of Immokalee and moved its
headquarters to Immokalee, Florida. In 1996, the name of the bank was changed to Florida Community.
In addition to a main office in Immokalee, Florida, the bank had 10 branches throughout 4 southern
Florida counties. Historically a generally well-rated agricultural bank, Florida Community’s risk profile
changed significantly in 2000 when management decided to increase its origination of commercial real
estate (CRE) loans. Florida Community was wholly-owned by Florida Community Banks, Inc., a one-
bank holding company formed in 2002, and also headquartered in Immokalee, Florida.

Audit Results
Causes of Failure and Material Loss

Florida Community’s failure can be primarily attributed to deficient Board of Directors (Board) and
management oversight of the institution’s risk management practices associated with its CRE and
acquisition, development, and construction (ADC) loan portfolios. Beginning in 2003, the overall size
and complexity of the bank increased substantially; however, the bank’s risk management processes
failed to keep pace with this higher risk profile. Specifically, the Board did not establish an effective
organizational structure to plan for and respond to the risks arising from changes in economic conditions
and collateral values. Beginning in 2003, the FDIC and the OFR repeatedly urged management to
establish more robust underwriting and loan portfolio management practices. However, these practices
were not fully developed and bank management did not implement effective measures to address all of
the examiners’ concerns. When the deterioration of the real estate market occurred, the risk management
deficiencies resulted in a significant decline in the quality of the institution’s loan portfolio. Provisions
for losses and actual losses depleted earnings, eroded capital, and strained liquidity. Ultimately, the OFR
closed Florida Community because prospects for a capital injection or sale of the bank were poor.

The FDIC’s Supervision of Florida Community

Our review focused on supervisory oversight of Florida Community between 2003 and 2009. During that
period, the FDIC and the OFR conducted seven onsite risk management examinations and the FDIC
monitored current and emerging issues at the bank through its offsite monitoring program. Through those


                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of Florida Community
                                      Bank, Immokalee, Florida
                                                                                      Report No. MLR-10-044
                                                                                                 August 2010

supervisory efforts, examiners identified key risks in the bank’s operations and brought these risks to the
attention of the bank’s Board and management through examination reports and other correspondence.
Such risks included the bank’s concentrations in CRE and ADC lending and weak loan underwriting and
credit administration policies and practices. In addition, the FDIC and the OFR initiated enforcement
actions related to the identified weaknesses after the 2006, 2008, and 2009 examinations.

Florida Community’s overall financial condition was considered satisfactory until the OFR 2006
examination. The OFR downgraded the bank to a composite “3” rating at the 2006 examination and
pursued a Cease and Desist Order to address numerous high-risk practices and deficiencies identified by
examiners. At the 2007 examination, the FDIC upgraded the bank to a composite “2” rating due to
improvements made related to the Bank Secrecy Act program and in the bank’s liquidity. In 2008, the
OFR downgraded the bank to a composite “4” rating due to significant deterioration in asset quality and
continued loan underwriting and credit administration weaknesses. By the 2009 examination, the FDIC
determined that asset quality, capital, and earnings were critically deficient and appeared to be beyond
management’s ability to control, and further downgraded the bank to a composite “5” rating.

Although the FDIC’s supervisory approach was consistent with practices in place at the time for an
institution with Florida Community’s risk profile, the composite “2” rating assigned at the 2007
examination may not have been representative of the risk management deficiencies and negative trends in
financial performance identified in the report. Further, more thorough follow-up at that examination to
ensure prior examination recommendations were addressed would have been beneficial in mitigating
apparent risks at Florida Community. Specifically, had the FDIC ensured that Florida Community
addressed the recommendations in the 2003 to 2006 examinations earlier and made improvements to the
bank’s risk monitoring, underwriting standards, and Board oversight, losses incurred by the DIF, to some
extent, may have been mitigated. Ultimately, although the FDIC and the OFR pursued supervisory
actions in 2008 and 2009, and Florida Community took steps to address them, the actions and responses
were not timely or sufficient to prevent the bank’s failure.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner.

Management Response

The Director, Division of Supervision and Consumer Protection (DSC), provided a written response,
dated August 19, 2010, to the draft report. In its response, DSC reiterated the OIG’s conclusions
regarding the causes of Florida Community’s failure. With regard to our assessment of the FDIC’s
supervision of Florida Community, DSC summarized the supervisory history, including offsite
monitoring activities, described in our report. Further, DSC recognized that strong supervisory attention
is necessary for institutions with high CRE/ADC concentrations and volatile funding sources, such as
Florida Community, and indicated that it had issued a Financial Institution Letter to banks that re-
emphasizes the importance of robust credit risk-management practices for institutions with concentrated
CRE exposures and sets forth broad supervisory expectations.




                                  To view the full report, go to www.fdicig.gov
                                  Contents
                                                                           Page
Background                                                                        2

Causes of Failure and Material Loss                                               2
  Oversight and Risk Management Practices                                         3
  ADC and CRE Loan Concentrations                                                 7

The FDIC’s Supervision of Florida Community                                   11
   Supervisory History                                                        11
   Supervisory Response to Key Risks                                          14
   Implementation of PCA                                                      17
   Supervisory Lessons Learned                                                18

Corporation Comments                                                          19

Appendices
  1. Objectives, Scope, and Methodology                                       20
  2. Glossary of Terms                                                        23
  3. Acronyms                                                                 27
  4. Florida Community’s Weaknesses Identified by Examiners                   28
  5. Corporation Comments                                                     29

Tables
   1. Selected Financial Information for Florida Community, 2005 to 2009       2
   2. Florida Community’s ADC and CRE Charge-Offs                              9
   3. Florida Community’s ADC Concentrations Compared to Peer Group           10
   4. Florida Community’s CRE Concentrations Compared to Peer Group           10
   5. Florida Community’s Examination History from 2003 to 2009               12

Figure
   Composition of Florida Community’s Loan Portfolio from 2005 to 2009            8
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           August 30, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection

                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of Florida Community Bank,
                                                Immokalee, Florida (Report No. MLR-10-044)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, and as amended
by the Dodd-Frank Wall Street Reform and Consumer Protection Act (Financial Reform
Act), the Office of Inspector General (OIG) conducted a material loss review (MLR) of
the failure of Florida Community Bank (Florida Community), Immokalee, Florida. The
Florida Office of Financial Regulation (OFR) closed the institution on January 29, 2010
and named the FDIC as receiver. On March 1, 2010, the FDIC notified the OIG that
Florida Community’s total assets at closing were $897.8 million and the estimated loss to
the Deposit Insurance Fund (DIF) was $349.1 million. The estimated loss exceeds the
$200 million MLR threshold for losses occurring between January 1, 2010 and
December 31, 2011, as established by the Financial Reform Act. As of August 6, 2010, the
estimated loss to the DIF had decreased to $308 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of Florida
Community’s failure and resulting material loss to the DIF and (2) evaluate the FDIC’s
supervision of Florida Community, including implementation of the PCA provisions of
section 38 of the FDI Act. This report presents our analysis of Florida Community’s
failure and the FDIC’s efforts to ensure that the Board of Directors (Board) and
management operated the institution in a safe and sound manner. The report does not
contain formal recommendations. Instead, as major causes, trends, and common
characteristics of financial institution failures are identified in our material loss reviews,
we will communicate those to FDIC management for its consideration. As resources
 allow, we may also conduct more comprehensive reviews of specific aspects of the
 FDIC’s supervision program and make recommendations, as warranted.1

 Appendix 1 contains details on our objectives, scope, and methodology. We also include
 several other appendices to this report. Appendix 2 contains a glossary of key terms,
 including material loss, the FDIC’s supervision program, and the Uniform Financial
 Institutions Rating System, otherwise known as the CAMELS ratings. Appendix 3
 contains a list of acronyms, Appendix 4 summarizes Florida Community’s weakness as
 identified in examination reports from 2003 through 2009, and Appendix 5 contains the
 Corporation’s comments on this report.


 Background
 Florida Community was a state nonmember bank established in 1923 as the Bank of the
 Everglades, Everglades City, Florida. In 1966, the bank changed its name to First Bank
 of Immokalee and moved its headquarters to Immokalee, Florida. In 1996, the name of
 the bank was changed to Florida Community. In addition to a main office in Immokalee,
 Florida, the bank had 10 branches throughout 4 southern Florida counties. Historically a
 generally well-rated agricultural bank, Florida Community’s risk profile changed
 significantly in 2000 when management decided to increase its origination of commercial
 real estate loans. Florida Community was wholly-owned by Florida Community Banks,
 Inc., a one-bank holding company formed in 2002, and also headquartered in Immokalee,
 Florida. The company’s stock was widely held. Table 1 provides details on Florida
 Community’s financial condition as of September 30, 2009 and for the 4 preceding
 calendar years.

 Table 1: Selected Financial Information for Florida Community, 2005 to 2009
Financial Measure                Sept 2009        Dec 2008        Dec 2007        Dec 2006         Dec 2005
Total Assets ($000s)                $875,473        $954,629       $932,692       $1,009,299           $906,143
Total Loans ($000s)                 $570,101        $624,634       $752,931         $863,744           $791,609
Total Deposits ($000s)              $795,454        $846,440       $754,805         $839,683           $737,840
Net Income (Loss) ($000s)          ($29,603)       ($75,354)        $ 12,027         $24,028            $18,759
 Source: Uniform Bank Performance Report (UBPR) data for Florida Community.



 Causes of Failure and Material Loss
 Florida Community’s failure can be primarily attributed to deficient Board and
 management oversight of the institution’s risk management practices associated with its
 commercial real estate (CRE) and acquisition, development, and construction (ADC) loan
 portfolios. Beginning in 2003, the overall size and complexity of the bank increased
 substantially; however, the bank’s risk management processes failed to keep pace with
 this higher risk profile. Specifically, the Board did not establish an effective

 1
  A further discussion of OIG-related coverage of financial institution failures can be found in the
 Objectives, Scope, and Methodology section of our report.


                                                       2
organizational structure to plan for and respond to the risks arising from changes in
economic conditions and collateral values. Beginning in 2003, the FDIC and the OFR
repeatedly urged management to establish more robust underwriting and loan portfolio
management practices. However, these practices were not fully developed and
management did not implement effective measures to address all of the examiners’
concerns. When the deterioration of the real estate market occurred, the risk management
deficiencies resulted in a significant decline in the quality of the institution’s loan
portfolio. Provisions for losses and actual losses depleted earnings, eroded capital, and
strained liquidity. Ultimately, the OFR closed Florida Community because prospects for
a capital injection or sale of the bank were poor.

Oversight and Risk Management Practices

Beginning in 2003, Florida Community embarked on a strategy of loan portfolio
expansion, primarily in ADC and outside of the bank’s market area. Throughout its
expansion period, Florida Community’s Board and management did not implement sound
risk management, loan underwriting, or credit administration practices commensurate
with the significant concentrations in ADC and CRE loans. In addition, Florida
Community operated under a dominant official and a Board that was reluctant to correct
previously identified deficiencies or implement regulatory recommendations.

The FDIC’s 2009 and final examination report stated that over the past several years,
bank management had failed to exert ample supervision over the rapid growth of the loan
portfolio, underwriting, and credit risk management, which ultimately resulted in a
massive volume of problem assets and credit losses.

In addition, from 2004 through 2009, regulators expressed concerns related to Florida
Community’s reliance on non-core funding sources2 to grow the bank. As early as 2006,
brokered deposits alone accounted for 42 percent of total deposits, which according to
examiners reflected a shift in the bank’s business plan from steadily building a core
deposit base to fund asset growth to one funded by volatile wholesale liabilities.
According to the OFR 2008 examination report, the bank was operating with an over-
reliance on and excessive level of brokered deposits, which the OFR considered to be an
unsafe and unsound practice. The 2009 FDIC examination report stated that the bank’s
funding was largely dependent on high-cost certificates of deposits because certain
borrowing lines were curtailed or canceled.

Risk Management Practices Related to CRE and ADC Lending

Florida Community’s Board and management failed to adequately oversee the CRE
lending division and ensure that effective risk management processes were in place to
identify and control the concentration of risk in CRE, and ADC lending in particular.
This lack of oversight resulted in numerous loan classifications, charge-offs, and write-

2
 Florida Community’s non-core funds included Internet time deposits, customer time deposits of $100,000
and over, brokered deposits, and Federal Home Loan Bank (FHLB) of Atlanta and Federal funds
purchased.


                                                   3
downs that were exacerbated by declining real estate values. Examiners attributed the
level and severity of adverse classifications to several factors:

      Loan growth that more than doubled from $430 million in 2003 to $864 million in
       2006.

      An excessive concentration in ADC lending.

      Weakened credit quality due to management’s failure to establish effective project
       and construction monitoring and inadequate checks and balances over the credit
       administration process that relied exceedingly on loan officers to assess
       borrowers’ adherence to prescribed loan covenants, financial condition, and
       overall credit worthiness.

      Weak loan underwriting that relied excessively on interest reserves and
       emphasized collateral coverage over repayment capacity and cash flow adequacy.

Examiners noted concern with the risk associated with the bank’s increasing levels of
CRE concentrations from 2003 through 2009. Starting in 2003, examination reports
noted that improvements were needed in tracking and reporting asset concentrations to
the Board, and Florida Community needed to implement a comprehensive concentration
risk management system. Also, according to the 2007 through 2009 examination reports,
several of the bank’s internal target limits related to CRE concentrations appeared
excessive given the depressed economic environment of the bank’s market area and
dismal performance of ADC credits. The losses related to these concentrations caused
excessive charge-offs that impaired capital and, ultimately, the viability of the bank.

Loan Underwriting and Credit Administration

From 2005 through 2009, examiners identified the need for improvement in the bank’s
loan underwriting and credit administration practices. In addition, during 2006 and 2007,
Florida Community operated without a credit department, and a Senior Credit
Underwriter was not hired until December 2007.

During the March 2009 examination, the bank was cited for a Contravention to Part 364
Appendix A of the FDIC Rules and Regulations, which in part requires an institution to
establish and maintain prudent loan documentation and credit underwriting practices
before capital becomes impaired. The examination reported the following loan
underwriting and credit administration weaknesses:

      Inappropriate and excessive use of interest reserves.
      Excessive reliance on extensions and renewals.
      Excessive volume of loans on interest-only payment schedules.
      Poor selection of risks as evidenced by:
          o loans made for the speculative purchase of land or lot assemblage,
          o loans made without adequate owner equity,




                                            4
            oloans that were adequately protected by collateral but involved a borrower
             with limited or unassessed repayment ability, and
           o loans made to finance risky real estate business ventures.
       Over-lending to one borrower.
       Excessive reliance on borrower’s reputation and lack of attention to changing
        economic conditions.

Some of the above weaknesses were also identified by examiners prior to the 2009
examination. For example, as shown in Appendix 4, examiners noted the inappropriate
use of interest reserves in the 2005, 2007, and 2009 examination reports.

Dominant Official and Inadequate Board Oversight

From the early 1990s through 2009, Florida Community was influenced by a dominant
official who over time held the titles of President, Chief Executive Officer (CEO), and
Chairman of the Board. 3 As CEO, this individual put in place a business strategy to yield
higher profits that was heavily reliant on CRE lending. He was the only inside director
and according to examiners, operated the bank as a “classic one man show.” The CEO
was very active in establishing bank direction and policy and operating the bank on a
day-to-day basis, including making all major credit decisions. Although Florida
Community branch office presidents were involved in producing loans, the CEO, to a
significant degree, acted as the Chief Credit Officer, promoting policy and reviewing and
approving all major credits. Further, the CEO formulated the basic business philosophy
of the bank, which emphasized collateral.

According to the FDIC’s Risk Management Manual of Examination Policies
(Examination Manual), “One Man Banks” are institutions where the principal officer and
stockholder dominates virtually all phases of the bank’s policies and operations. Often
this situation stems from the personality of the principal officer or ownership control, and
it is usually abetted by an apathetic Board. This development is facilitated by the fact
that directors are very often nominated by bank officers to whom they feel indebted for
the honor, even though stockholders elect them. Over the years, an officer can influence
the election of a sufficient number of directors so that the officer is ultimately able to
dominate the Board and the affairs of the bank. There are at least two potential dangers
inherent in a “One Man Bank” situation:

       Incapacitation of the dominant officer may deprive the bank of competent
        management, and because of the immediate need to fill the managerial void, may
        render the bank vulnerable to dishonest or incompetent replacement leadership.

       Problem situations resulting from mismanagement are more difficult to solve
        through normal supervisory efforts because the bank’s problems are often
        attributed to the one individual that dominates the bank.


3
 The official joined the bank in 1981 and was appointed President in December 1983, CEO in January
1990, and Chairman of the Board in January 2000.


                                                  5
As early as 1992, examiners noted that the CEO retained control over much of the bank’s
operations, seemed reluctant to delegate responsibility to other officers, and appeared to
have a disregard for written policies and documentation. At that time, he originated
80 percent to 90 percent of the loans, wrote most of the bank’s policies, conducted a
majority of in-house appraisals and outside appraisal reviews, and managed the bank’s
daily affairs. He remained the dominant policymaker and was responsible for day-to-day
management until an Executive Vice President was hired in 2006 to assume primary
responsibility for the bank’s daily operations.

According to FDIC and OFR examiners, the CEO operated as a “one man show” with a
Board that allowed him to do so. Further, it was noted that he argued and fought
examination criticisms and findings and had been generally uncooperative with
regulators.

The CEO also met the Examination Manual’s description of a “dominant” official.

      The CEO dominated virtually all phases of the bank’s policies and operations.
       Historically an agricultural bank, its profile changed significantly under his
       leadership. The bank expanded outside of Immokalee and developed a presence
       in the Naples, Fort Myers, Port Charlotte, Lehigh, and LaBelle markets. He was
       very active in establishing bank direction and policy and operating the bank on a
       day-to-day basis, including influencing all major credit decisions, Bank Secrecy
       Act (BSA) decisions, personnel issues, and operational matters. According to
       examiners, the CEO stated that he operated the bank as a “benevolent dictator.”
       In addition, according to examiners, any dissention or question of his authority by
       bank management was not welcomed.

      The CEO was abetted by the Board. The Board did not adequately exert its
       authority, and Board members did not have sufficient CRE expertise to question
       the judgment of the CEO. There was no apparent effort to seek new Board
       members to complement the bank’s geographic expansion into the major
       metropolitan areas of Southwest Florida, or to change the CRE lending emphasis.

      There was a lack of competent management to run the bank in the absence of the
       CEO. It was the examiners’ opinion that the members of the Board did not have
       expertise in CRE lending, making them unqualified to step in if the CEO left the
       bank. Examiners also noted that the bank’s branch presidents did not appear to
       have the requisite qualifications for managing a $1 billion bank with an excessive
       and complicated CRE concentration. Further, the lack of a credit department
       would have further exacerbated problems if the CEO was no longer able to serve
       in that position. Although an Executive Vice President was hired in 2006,
       examiners did not think he would be able to provide meaningful assistance
       because he did not have specific expertise in CRE lending, was from out-of-state,
       and was not familiar with the local markets and borrowers.




                                            6
Failure to Correct Previously Identified Deficiencies

Although the FDIC and the OFR repeatedly urged management to establish more robust
underwriting and loan portfolio management practices, bank management did not fully
develop and implement effective measures to address all examiner concerns. In 2003,
examiners determined that bank management had not established adequate risk processes
to identify, measure, monitor, and control concentrations. In the 2006 OFR examination
report, the bank was warned that if the real estate market were to deteriorate, the bank
could be exposed to significant credit losses. At that examination, examiners rated
management less than satisfactory due to a lack of oversight by the Board and the
reluctance to establish risk management practices commensurate with the bank’s growth
and increased risk profile. However, as discussed in subsequent examination reports, the
bank failed to address these concerns, particularly as they related to CRE concentrations,
credit underwriting and administration, and compliance with regulations related to loan-
to-value (LTV) requirements. Appendix 4 provides a list of concerns addressed in
examination reports from 2003 through 2009.

ADC and CRE Loan Concentrations

Losses within Florida Community’s ADC and CRE loan portfolios were principal factors
leading to the bank’s deteriorating financial condition and subsequent failure. The losses
were beyond the bank’s ability to effectively manage in a declining economic
environment and, as previously discussed, were the result of inadequate risk management
practices. Although this lending strategy provided significant earnings when real estate
values were increasing, these concentrations exposed the bank to excessive credit risk as
real estate values declined.

The figure following illustrates the general composition of Florida Community’s loan
portfolio in the years preceding the institution’s failure. In total, Florida Community’s
portfolio of ADC and other CRE loans was significant – ranging from 75 percent to
84 percent of gross loans and leases over the period 2005 to 2009.




                                             7
Composition of Florida Community’s Loan Portfolio from 2005 to 2009


                             $1,000                        $867
                                             $795
                              $900                                       $754
    Gross Loans and Leases

                                                        $149
                              $800        $125                                        $626
                                                                      $147
                              $700                                                                 $553
           (millions)



                                          $202          $246
                              $600                                                  $150
                                                                      $201                       $139
                              $500
                                                                                    $147
                              $400                                                               $123
                              $300        $468          $472
                                                                      $406
                              $200                                                  $329         $291
                              $100
                                $0
                                      Dec 2005      Dec 2006      Dec 2007      Dec 2008     Dec 2009
                                                               Period Ending

                                            ADC Loans          Other CRE Loans      All Other Loans

Source: OIG analysis based on Call Report data for Florida Community.

Asset quality deteriorated significantly during the period between the FDIC 2007 and
2009 examinations, with adversely classified items increasing from $88.5 million to
$350.7 million, representing 258 percent of Tier 1 Capital and reserves, or 36 percent of
total assets. As a result, substantial provision expenses were necessary to replenish the
allowance for loan and lease losses (ALLL).

Table 2 provides details on Florida Community’s loan charge-offs. From 2004 to 2009,
84 percent ($64.6 million) of the bank’s charge-offs were in the CRE loan portfolio, with
69 percent ($53.3 million) of the charge-offs attributed to the ADC loans.




                                                                  8
Table 2: Florida Community’s ADC and CRE Charge-Offs
                                                           CRE Charge-Offs                         % CRE
                          Total Loan                           ($000s)                             Charge-
    Period Ended          Charge-Offs                                                             Offs/Total
                            ($000s)                                Other                            Loan
                                                   ADC                          Total CRE        Charge-Offs
                                                                   CRE

December 2004                         455                  0             0                 0                  0
December 2005                         181                  0             0                 0                  0
December 2006                         265                119             0               119                 45
December 2007                       2,341                733            17               750                 32
December 2008                      51,216             35,239         9,434            44,673                 87
December 2009                      22,356             17,186         1,846            19,032                 85
Total                              76,814             53,277        11,297            64,574                 84
Source: OIG analysis based on Call Report data for Florida Community.
Note: The remaining charge-offs of $12.2 million (16 percent) were related to the following types of loans:
loans secured by farmland; revolving loans; open-ended loans secured by 1-4 family residential; closed-end
loans secured by 1-4 family residential first liens; closed-end loans secured by 1-4 family residential second
liens; commercial and industrial loans; loans to individuals; single payment and installment; and all other
loans.


Federal banking regulatory agencies issued guidance in December 2006, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance), recognizing that there are substantial risks posed by CRE and ADC
concentrations.4 The Joint Guidance specifically notes that concentrations in CRE
lending coupled with weak loan underwriting and depressed CRE markets have
contributed to significant credit losses in the past and that such concentrations may make
institutions more vulnerable to cyclical CRE markets.

The Joint Guidance defines institutions with significant CRE concentrations as those
reporting loans for construction, land and development, and other land (i.e., ADC)
representing 100 percent or more of total capital; or institutions reporting total CRE loans
representing 300 percent or more of total capital, where the outstanding balance of CRE
has increased by 50 percent or more during the prior 36 months. According to the
guidance, an institution that has experienced rapid growth in CRE lending, has notable
exposure to a specific type of CRE, or is approaching or exceeds the previous criteria
may be identified for further supervisory analysis of the level and nature of its CRE
concentration risk.

As shown in Table 3, Florida Community’s concentration in ADC loans from 2006 to
2009 exceeded the criteria used to identify institutions that may warrant further
supervisory analysis. In addition, ADC loans as a percent of the bank’s total capital and
total loans were significantly above its peer group5 averages during the same period.


4
  The guidance was issued jointly by the Office of the Comptroller of Currency, the Board of Governors of
the Federal Reserve System, and the FDIC (collectively referred to as the agencies in the guidance).
5
  Florida Community’s peer group included institutions located in a metropolitan statistical area with assets
between $300 million and $1 billion.


                                                      9
Table 3: Florida Community’s ADC Concentrations Compared to Peer Group
                              ADC Loans                                          ADC Loans
    Period          As a Percentage of Total Capital                    As a Percentage of Total Loans
    Ended          Florida                                            Florida
                                 Peer        Percentile                              Peer       Percentile
                 Community                                          Community
 Dec 2006              386.08            135.57                95           54.66            17.75                96
 Dec 2007              315.30            123.67                91           53.95            16.49                98
 Dec 2008              547.30            139.17                98           52.62            16.98                98
 Sept 2009          1,033.63*             92.28                99           53.56            12.35                99
Source: UBPR data for Florida Community.
* The increase in risk exposure from CRE loans in 2009 was due primarily to the decline in capital levels.

As shown in Table 4, Florida Community’s CRE concentrations from 2007 to 2009 also
exceeded the CRE concentration criteria in the Joint Guidance. In addition, CRE loans as
a percent of total capital and total loans were significantly above the bank’s peer group
averages from 2007 to 2009.

Table 4: Florida Community’s CRE Concentrations Compared to Peer Group
                              CRE Loans                                          CRE Loans
    Period          As a Percentage of Total Capital *                  As a Percentage of Total Loans
    Ended          Florida                                            Florida
                                 Peer        Percentile                              Peer       Percentile
                 Community                                          Community
 Dec 2007           432.92           263.41               84            74.08            35.24               97
 Dec 2008           711.08           307.45               95            68.36            38.05               94
 Sept 2009        1,338.86**         239.24               99            69.37            32.20               97
Source: UBPR data for Florida Community.
* Percentages for Florida Community and its peer group excluded owner-occupied CRE. We did not include
CRE information for 2006 because the Joint Guidance did not require banks to maintain information on non-
owner occupied CRE prior to 2007.
** The increase in risk exposure from CRE loans in 2009 was due primarily to the decline in capital levels.

The OFR 2006 examination report stated that the overall condition of the bank was less
than satisfactory, and asset quality appeared to be deteriorating. The criticized loans at
that examination were all centered in CRE and showed significant underwriting and
credit administration weaknesses. According to examiners, the high concentration in
CRE loans was alarming in view of the loan underwriting and credit administration
weaknesses documented in the examination report. Also, according to the 2007 through
2009 examination reports, several of the bank’s internal target limits for CRE and ADC
lending appeared excessive given the depressed economic environment of the bank’s
market area and dismal performance of ADC credits. As previously noted, asset quality
deteriorated significantly during the period between the 2007 and 2009 examinations,
resulting in adversely classified items that were at an unmanageable level. The losses
related to the concentrations caused excessive charge-offs that impaired capital and
ultimately the viability of the bank.




                                                     10
The FDIC’s Supervision of Florida Community
Our review focused on supervisory oversight of Florida Community between 2003 and
2009. During that period, the FDIC and the OFR conducted seven onsite risk
management examinations and the FDIC monitored current and emerging issues at the
bank through its offsite monitoring program. Through those supervisory efforts,
examiners identified key risks in the bank’s operations and brought these risks to the
attention of the bank’s Board and management through examination reports and other
correspondence. Such risks included the bank’s concentrations in CRE and ADC
lending, and weak loan underwriting and credit administration policies and practices. In
addition, the FDIC and the OFR initiated enforcement actions related to the identified
weaknesses after the 2006, 2008, and 2009 examinations.

Florida Community’s overall financial condition was considered satisfactory until the
2006 OFR examination. The OFR downgraded the bank to a composite “3” rating at the
2006 examination and pursued a Cease and Desist Order (C&D) to address numerous
high-risk practices and deficiencies identified by examiners. At the 2007 examination,
the FDIC upgraded Florida Community to a composite “2” rating due to improvements
made in its BSA program and in the bank’s liquidity. In 2008, the OFR downgraded the
bank to a composite “4” rating due to significant deterioration in asset quality and
continued loan underwriting and credit administration weaknesses and pursued a second
C&D. By the 2009 examination, the FDIC determined that asset quality, capital, and
earnings were critically deficient and appeared to be beyond management’s ability to
control, and further downgraded the bank to a composite “5” rating.

Although the FDIC’s supervisory approach was consistent with practices in place at the
time for an institution with Florida Community’s risk profile, the composite “2” rating
assigned at the 2007 examination may not have been representative of the risk
management deficiencies and negative trends in financial performance identified in the
report. Further, more thorough follow-up at that examination to ensure prior examination
recommendations were addressed would have been beneficial in mitigating apparent risks
at Florida Community. Specifically, had the FDIC ensured that Florida Community’s
management addressed the recommendations in the 2003 to 2006 examinations earlier
and made improvements to the bank’s risk monitoring, underwriting standards, and
Board oversight, losses incurred by the DIF, to some extent, may have been mitigated.
Ultimately, although the FDIC and the OFR pursued supervisory actions in 2008 and
2009, and Florida Community took steps to address them, the actions and responses were
not timely or sufficient to prevent the bank’s failure.

Supervisory History

Table 5 summarizes the supervisory history for Florida Community from 2003 to 2009.
In addition to seven risk management examinations conducted by the FDIC and the OFR
during this period, the FDIC conducted two visitations at Florida Community.




                                           11
Table 5: Florida Community’s Examination History from 2003 to 2009
    Examination/Visitation                                 Supervisory
                                            Agency                               Supervisory Action
    Start Date                                             Ratings
    February 10, 2003                       FDIC           223122/2              N/A
    February 17, 2004                       OFR            122122/2              N/A
    February 14, 2005                       FDIC           122122/2              N/A
    April 17, 2006                          OFR            233132/3              C&D
    January 29, 2007 (Visitation)           FDIC           N/A                   N/A
    March 5, 2007                           FDIC           233122/2              N/A
    April 28, 2008                          OFR            354433/4              C&D
    March 9, 2009                           FDIC           555554/5              C&D*
    December 10, 2009 (Visitation)          FDIC           N/A                   N/A
Source: The FDIC’s Virtual Supervisory Information on the Net and examination reports for Florida
Community.
* This action was in process at the time the bank was closed.

Offsite Reviews

Florida Community was flagged by the Statistical CAMELS Off-Site Review Program
(SCOR)6 in December 2003, and seven times between June 30, 2007 and June 30, 2009.
The SCOR reviews generally noted potential deterioration in asset quality as evidenced
by the increased level of non-performing loans; however, the reviews noted that either in-
process or upcoming examinations eliminated the need for further offsite action.

Enforcement Actions

The OFR and the FDIC each pursued formal enforcement actions to address weak risk
management practices identified by examiners.

May 2007 C&D. During the April 2006 OFR examination, Florida Community’s
condition was found to be less than satisfactory and, as a result, the OFR initiated a C&D
against the bank. According to FDIC regional management, the FDIC did not join in the
C&D with OFR because the action was originated based on the OFR’s examination
results and not on a joint examination, and legally the FDIC cannot defend an order that
is based solely on a state examination. Florida Community’s Board would not stipulate
to the C&D and requested an administrative hearing. In October 2006, the OFR issued
an Administrative Complaint and Notice of Rights (Complaint), and subsequently served
the Complaint on Florida Community. Finally, on May 25, 2007, the OFR and Florida
Community agreed to a C&D, which required the bank’s Board and management to,
among other things:

         Immediately increase their participation in the affairs of the bank.




6
  SCOR is a financial model that uses statistical techniques, offsite data, and historical examination results
to measure the likelihood that an institution will receive a CAMELS downgrade at the next examination.


                                                      12
      Conduct evaluations to assess the qualifications and performance of all senior
       managers to determine if each person had the experience commensurate with his
       or her duties and responsibilities at the bank.

      Recruit and hire any additional or replacement personnel needed to properly staff
       the bank with qualified experienced officers.

      Maintain a Directors’ Loan Committee that would oversee Florida Community’s
       policies, procedures, and compliance with state and federal laws and regulations
       concerning the bank’s lending activities.

      Ensure that Florida Community’s Directors received training in the review and
       underwriting of commercial real estate loans.

      Maintain a viable program to identify, measure, and monitor credit
       concentrations.

      Establish a credit department.

      Employ a full-time, qualified, experienced Chief Credit Officer who was
       independent of loan production and would manage, implement, coordinate, and
       monitor approved loan policies, the quality assessment program, and perform day-
       to-day loan review.

October 2008 C&D. As a result of the adverse findings identified at the April 2008
OFR examination, a C&D was pursued to promote a corrective program. The C&D
became effective October 17, 2008 and required the bank to, among other things, address
concerns pertaining to management, capital, asset quality, earnings, liquidity, and
sensitivity to market risk. The C&D included, but was not limited to, the following
provisions:

      Establish a search committee, comprised entirely of outside directors, to identify
       and recruit new Board members with sufficient expertise to return the bank to a
       safe and sound condition.

      Develop a Capital Plan to maintain a Well Capitalized institution with specific
       capital ratios.

      Develop a plan to address loan administration and underwriting deficiencies noted
       in the examination report (Underwriting Plan).

      Develop a written plan to reduce concentrations.

      Review the adequacy of the ALLL.




                                            13
      Formulate and implement a written plan to improve earnings (Earnings Plan).

      Submit to the Supervisory Authorities for review and comment a written plan for
       reducing Florida Community’s reliance on brokered deposits (Deposit Plan).

November 2009 C&D. On November 10, 2009, the FDIC proposed a C&D to address
additional weaknesses discovered at the FDIC March 2009 examination. The findings of
this examination indicated that management had failed to comply with several key
provisions of the 2008 OFR C&D. Further, according to the FDIC, the problems
identified at the March 2009 examination were much more severe and, as a result, a new
C&D was drafted to replace the existing 2008 OFR C&D. The new areas covered by the
proposed FDIC C&D included: (1) implementation of written lending policies to address
examination criticisms, including those regarding loan renewals; (2) implementation of a
policy limiting the use of loan interest reserves; (3) revision of the internal loan review
grading system to address examination concerns; and (4) formulation of a written
strategic plan. The C&D was in process but had not been implemented at the time the
bank was closed.

Supervisory Response to Key Risks

FDIC and OFR examiners consistently identified concerns and made recommendations
related to the risks associated with Florida Community’s CRE loan concentrations and
poor risk management practices. The following provides a brief synopsis of examination
efforts related to those risks from 2005 to 2009.

FDIC February 2005 Examination

Overall, the bank’s financial condition was considered satisfactory and the bank was
assigned a composite “2” rating. According to examiners, the level and severity of
classified, delinquent, and nonperforming assets was moderate; however, weaknesses
were noted related to the bank’s credit administration and processes for tracking and
reporting asset concentrations to the Board. Specifically, the bank had not fully
implemented a comprehensive concentration risk management system to identify,
measure, monitor, and control the risk associated with asset concentrations. In addition,
the bank was cited for an apparent contravention of the Interagency Guidelines for Real
Estate Lending Policies, Appendix A to Part 365 of the FDIC’s Rules and Regulations,
because it was not reporting loan exceptions in excess of the supervisory LTV limits to
the Board as required by the guidelines. Examiners noted that these issues had been
addressed in the prior two regulatory examination reports and had not been adequately
resolved by the bank.

OFR April 2006 Examination

According to the examination report, the overall condition of the bank was found to be
less than satisfactory. The OFR downgraded the bank to a composite “3” rating, citing
numerous deficiencies related to CRE concentrations and loan underwriting and credit



                                            14
administration practices. Examiners noted that asset quality had deteriorated from prior
examinations, and loan classifications and criticized assets had increased significantly.

The OFR also reported that management was less than satisfactory and was downgraded
due to a lack of oversight by the Board and the reluctance to provide risk management
practices commensurate with the bank’s growth and increased risk profile. Credit
administration resources and practices had not kept pace with loan growth and the
increases in more sophisticated lending products. Bank management had not established
adequate risk processes to identify, measure, monitor, and control concentrations. CRE
loans had increased to 737 percent of total capital and exhibited significant loan
underwriting and credit administration weaknesses. Examiners warned that if the real
estate market was to deteriorate, the bank could be exposed to significant credit losses.
As discussed earlier, the OFR initiated a C&D to address the identified weaknesses.

FDIC March 2007 Examination

The examination report described Florida Community’s asset quality as less than
satisfactory. Adverse classifications had increased to $88.6 million (71.5 percent of
capital and reserves), from $44.8 million and $8.7 million as of the 2006 and 2005
examinations, respectively. The level of past-due and nonaccrual loans had increased to
6.47 percent of gross loans compared to the peer average of 1.28 percent. Classified
loans were concentrated in ADC loans. Items listed for Special Mention totaled
$39.5 million and were identified as such primarily due to lenient underwriting standards,
which placed undue reliance on real estate values, and the failure by the bank to establish
effective monitoring controls for project financing.

Examiners reported that although Board and management oversight was generally
satisfactory, credit risk management practices needed to improve given the bank’s size
and complexity of lending activities. Declining real estate market prices, sales, and
valuations in certain areas were severe and management was not adequately monitoring
the exposure. Control of individual credits by the four branch office presidents had
contributed to inconsistent and weak loan structuring and loan account monitoring. The
bank needed to establishment a Credit Department that prepared credit analyses,
reviewed appraisals, conducted periodic analyses of borrowers’ and guarantors’ financial
conditions, and ensured lending activities were consistent with internal underwriting and
regulatory standards. Also, weaknesses were identified in the bank’s credit policy, global
cash flow analyses, appraisal reviews, and project/market analyses. These deficiencies
highlighted the need for management to establish more prudent loan portfolio
management standards and processes.

The March 2007 examination report noted that asset quality and related credit risk
management practices remained in need of improvement. Specifically:

      Asset quality had deteriorated since the OFR April 2006 examination and
       adversely classified items had significantly increased. Classified assets, as well as
       those listed for Special Mention, exhibited some loan underwriting and credit



                                            15
        administration weaknesses that needed to be addressed, such as inadequate cash
        flow analysis and outdated financial information on borrowers and guarantors.

       The bank had a large concentration in CRE, comprised largely of land, ADC, and
        construction loans. Examiners noted that, in light of this type of portfolio, more
        appropriate risk diversification guidelines were needed.

       Examiners recommended improvements to the loan policy and internal reporting,
        and advised the bank to change to a more centralized portfolio management
        structure.

Although the Management component was rated a “3”, no supervisory action was
pursued to address the deficiencies detailed in the examination report. Further, according
to the examination report, the bank received a composite “2” rating based on its strong
earnings and capital support, satisfactory funds management practices, and access to
sufficient sources of funds on acceptable terms.

OFR April 2008 Examination

Examiners found that the overall condition of Florida Community had deteriorated
significantly since the previous FDIC examination and was considered poor and rated the
bank a composite “4”. The examination report noted that the deterioration was largely
the result of poor risk management practices employed by the Board and management,
coupled with a general decline in economic conditions in southern Florida. The loan
portfolio contained an elevated level of risk due to large concentrations in CRE and ADC
loans. In addition, asset quality was unsatisfactory, with adversely classified assets
totaling $232 million, or roughly 25 percent of total assets. The level of adversely
classified assets had increased 162 percent since the prior examination. According to
examiners, operating with this level of adversely classified assets was an unsafe and
unsound practice. As a result of the examination findings, the OFR pursued a C&D to
correct the identified deficiencies.7

FDIC March 2009 Examination

The bank was further downgraded to a composite “5” rating. The examination report
stated that the condition of the bank was poor, with performance measures in all areas at
critically deficient levels. According to the examination report, over the past several
years, management had failed to exert ample supervision over the rapid growth of the
loan portfolio, underwriting, and credit risk management, which ultimately resulted in a
massive volume of problem assets and credit losses. According to examiners, absent a
direct capital infusion or material recovery, the viability of the bank was threatened.




7
 To help the bank meet the minimum capital level requirements stipulated by the 2008 C&D, on
December 30, 2008, Florida Community’s holding company made a capital contribution of $7.4 million.


                                                 16
Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC Rules and Regulations
implements PCA requirements by establishing a framework for taking prompt corrective
action against insured state-chartered nonmember banks that are not adequately
capitalized. The FDIC is required to closely monitor the institution’s compliance with its
capital restoration plan, mandatory restrictions defined under section 38(e), and
discretionary safeguards imposed by the FDIC (if any) to determine if the purposes of
PCA are being achieved. Based on the supervisory actions taken with respect to Florida
Community, we determined that the FDIC properly implemented applicable PCA
provisions of section 38.

On May 5, 2009, the FDIC sent a letter to Florida Community’s Board notifying the bank
that it was considered Significantly Undercapitalized and that it was subject to
restrictions on asset growth, dividends, other capital distributions, and management fees.
The letter also required the bank to file a written capital restoration plan within 45 days,
or no later than June 19, 2009, in accordance with Section 38(e)(2) of the FDI Act.
Based on March 31, 2009 call report data, Florida Community’s capital levels were:

       Tier I Leverage Ratio:                       3.65 percent
       Tier I Risk-Based Capital Ratio:             4.57 percent
       Total Risk-Based Capital Ratio:              5.87 percent

To be considered Well Capitalized under PCA, banks must maintain the following capital
levels.

       Tier I Leverage Ratio:                        5.00 percent
       Tier I Risk-Based Capital Ratio:              6.00 percent
       Total Risk-Based Capital Ratio:              10.00 percent

On May 26, 2009, the FDIC received Florida Community’s capital plan. On
September 22, 2009, the FDIC notified the bank’s Board that the plan had been
disapproved because it did not adequately address PCA requirements concerning the
specific steps the bank would take to become Adequately Capitalized.8 The plan also did
not include the performance guarantees required by Section 38(e)(2)(c) nor was it likely
to succeed in restoring the institution’s capital.

On October 22, 2009, the FDIC received an amended capital plan from Florida
Community. On December 22, 2009, the FDIC notified the bank that the amended plan
was not acceptable because it was not based on realistic assumptions and was not likely
8
  The FDIC acted on the bank’s capital restoration plan 119 days after receiving the plan, which was
beyond the 60 days required under the FDI Act. However, as discussed previously, Florida Community
was under an existing C&D that required the bank to develop a Capital Plan to maintain a Well Capitalized
institution. As a result, in our view, this delay was inconsequential to the supervision and failure of the
bank.



                                                    17
to succeed in restoring the institution’s capital. During that same timeframe, Florida
Community applied for but withdrew an application for $15 million in funding under the
U.S. Department of the Treasury’s Troubled Asset Relief Program. On January 29, 2010,
the OFR closed the bank and appointed the FDIC as receiver.

Supervisory Lessons Learned

Based on the FDIC’s examination findings, it appears that the composite “2” rating
assigned at the 2007 examination was not consistent with the financial condition and risk
profile of the bank. The 2007 examination report states that composite “2” ratings are
assigned to financial institutions that are fundamentally sound. For a financial institution
to receive this rating, in general:

      No component rating should be more severe than a “3”.

      Only moderate weaknesses are present and are well within the Board’s and
       management’s capabilities and willingness to correct.

      These financial institutions are stable and are capable of withstanding business
       fluctuations.

      These financial institutions are in substantial compliance with laws and
       regulations.

      Overall risk management practices are satisfactory relative to the institution’s
       size, complexity, and risk profile.

      There are no material supervisory concerns.

Based on the results of the 2007 examination, it does not appear that the bank exhibited
the characteristics listed above. For example, as noted in the FDIC’s March 2007
examination report, asset quality had deteriorated since the OFR April 2006 examination
and adversely classified items had significantly increased. In addition, examiners noted
that more appropriate risk diversification guidelines were needed in light of the fact that
the bank had large concentrations in CRE and ADC loans. Further, many of the
identified weaknesses were repeat criticisms, indicating the Board’s and management’s
incapability or unwillingness to correct such weaknesses.

We discussed the rationale for upgrading the bank from a composite “3” rating at the
2006 OFR examination to a “2” rating during the 2007 examination with regional office
management and field office examiners. We noted that, based on our review of the
examination report, safety and soundness issues had not improved and were very similar
to the conditions found at the prior examination. According to those individuals we
interviewed, profitability, strong earnings, and sufficient capital were difficult for
examiners to dismiss when assigning ratings. In that regard, the return on assets was
strong at over 2 percent, the bank’s capital and earnings ratios were in the top 5 to 10
banks in the country, the ALLL calculation was sound, the net interest margin was


                                             18
100 basis points over peer, and overhead was low. Nevertheless, faced with the same
circumstances today, examiners would likely place greater emphasis on management
practices when assigning ratings as called for in the FDIC’s Forward Looking
Supervision initiative. This initiative stresses, among other things, the importance of
considering high-risk practices as well as financial condition in assessing risk and
assigning ratings.


Corporation Comments
The Director, Division of Supervision and Consumer Protection (DSC), provided a
written response, dated August 19, 2010, to the draft report. That response is provided in
its entirety as Appendix 5 of this report. DSC reiterated the OIG’s conclusions regarding
the causes of Florida Community’s failure. With regard to our assessment of the FDIC’s
supervision of Florida Community, DSC summarized the supervisory history, including
offsite monitoring activities, described in our report. Further, DSC recognized that
strong supervisory attention is necessary for institutions with high CRE/ADC
concentrations and volatile funding sources, such as Florida Community, and indicated
that it had issued a Financial Institution Letter to banks that re-emphasizes the importance
of robust credit risk-management practices for institutions with concentrated CRE
exposures and sets forth broad supervisory expectations.




                                            19
                                                                              Appendix 1

                      Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, and as
amended by the Financial Reform Act, which provides, in general, that if the Deposit
Insurance Fund incurs a material loss with respect to an insured depository institution, the
Inspector General of the appropriate federal banking agency shall prepare a report to that
agency reviewing the agency’s supervision of the institution. The FDI Act requires that
the report be completed within 6 months after it becomes apparent that a material loss has
been incurred.

Our audit objectives were to (1) determine the causes of Florida Community’s failure and
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from March 2010 to June 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of Florida Community’s operations from
2003 until its failure on January 29, 2010. Our review also entailed an evaluation of the
regulatory supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed examination and visitation reports prepared by FDIC and OFR
         examiners from 2003 to 2009.

        Reviewed the following:

              Bank data and correspondence maintained on various FDIC systems.

              Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure.

              Audit reports prepared by the bank’s external auditor.

              Pertinent DSC policies and procedures and various banking laws and
               regulations.




                                              20
                                                                                  Appendix 1

                      Objectives, Scope, and Methodology


        Interviewed the following FDIC officials:

              DSC management in the Atlanta Regional Office, and Sunrise, Florida Field
               Office.

              DRR officials at the Dallas Regional Office, and Jacksonville, Florida office.

              FDIC examiners from the DSC Sunrise, Florida Field Office who
               participated in examinations and visitations of Florida Community.

              Officials from the OFR to discuss the historical perspective of the
               institution, its examinations, and other activities regarding the state’s
               supervision of the bank.

We performed the audit work at the OIG office in Arlington, Virginia.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
examination reports, and interviews of examiners to understand Florida Community’s
management controls pertaining to causes of failure and material loss as discussed in the
body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. In that regard, although not consequential to the overall


                                               21
                                                                              Appendix 1

                    Objectives, Scope, and Methodology

supervision of the institution, we note on page 17 that the FDIC did not meet the
requirement in section 38 of the FDI Act to “. . . act on capital restoration plans
expeditiously, and generally not later than 60 days after the plan is submitted.”

Additionally, we assessed the risk of fraud and abuse related to our objectives in the
course of evaluating audit evidence.

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions and these reports can be
found at www.fdicig.gov. In June 2010, the OIG initiated an audit, the objectives of
which are to (1) determine the actions that the FDIC has taken to enhance its supervision
program since May 2009, including those specifically in response to the May 2009
memorandum, and (2) identify trends and issues that have emerged from subsequent
MLRs.

In addition, with respect to more comprehensive coverage of specific issues, in May
2010, the OIG initiated an evaluation of the role and federal regulators’ use of the Prompt
Regulatory Action provisions of the FDI Act (section 38, PCA and section 39, Standards
for Safety and Soundness) in the banking crisis.




                                             22
                                                                                 Appendix 2

                              Glossary of Terms

Term                                             Definition
Adversely        Assets subject to criticism and/or comment in an examination report.
Classified       Adversely classified assets are allocated on the basis of risk (lowest to
Assets           highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for    The ALLL is an estimate of uncollectible amounts that is used to reduce
Loan and Lease   the book value of loans and leases to the amount that is expected to be
Losses (ALLL)    collected. It is established in recognition that some loans in the
                 institution’s overall loan and lease portfolio will not be repaid. Boards of
                 Directors are responsible for ensuring that their institutions have controls
                 in place to consistently determine the allowance in accordance with the
                 institutions’ stated policies and procedures, generally accepted accounting
                 principles, and supervisory guidance.

Bank Secrecy     Congress enacted the BSA of 1970 to prevent banks and other financial
Act (BSA)        service providers from being used as intermediaries for, or to hide the
                 transfer or deposit of money derived from, criminal activity. The BSA
                 requires financial institutions to maintain appropriate records and to file
                 certain reports, including cash transactions over $10,000 via the Currency
                 Transactions Reports. These reports are used in criminal, tax, or
                 regulatory investigations or proceedings.
Call Report      Reports of Condition and Income, often referred to as Call Reports,
                 include basic financial data for insured commercial banks in the form of a
                 balance sheet, an income statement, and supporting schedules. According
                 to the Federal Financial Institutions Examination Council’s (FFIEC)
                 instructions for preparing Call Reports, national banks, state member
                 banks, and insured nonmember banks are required to submit a Call Report
                 to the FFIEC’s Central Data Repository (an Internet-based system used
                 for data collection) as of the close of business on the last day of each
                 calendar quarter.

Cease and        A C&D is a formal enforcement action issued by a financial institution
Desist Order     regulator pursuant to 12 U.S.C. section 1818 to a bank or affiliated party
(C&D)            to stop an unsafe or unsound practice or a violation of laws and
                 regulations. A C&D may be terminated when the bank’s condition has
                 significantly improved and the action is no longer needed or the bank has
                 materially complied with its terms.

Concentration    A concentration is a significantly large volume of economically related
                 assets that an institution has advanced or committed to a certain industry,
                 person, entity, or affiliated group. These assets may, in the aggregate,
                 present a substantial risk to the safety and soundness of the institution.




                                            23
                                                                                    Appendix 2

                                 Glossary of Terms

FDIC’s              The FDIC’s supervision program promotes the safety and soundness of
Supervision         FDIC-supervised institutions, protects consumers’ rights, and promotes
Program             community investment initiatives by FDIC-supervised institutions. The
                    FDIC’s Division of Supervision and Consumer Protection (DSC)
                    (1) performs examinations of FDIC-supervised institutions to assess their
                    overall financial condition, management policies and practices (including
                    internal control systems), and compliance with applicable laws and
                    regulations and (2) issues related guidance to institutions and examiners.

Federal Home        FHLBs provide long-and short-term advances (loans) to their members.
Loan Bank           Advances are primarily collateralized by residential mortgage loans, and
(FHLB)              government and agency securities. Community financial institutions may
                    pledge small business, small farm, and small agri-business loans as
                    collateral for advances. Advances are priced at a small spread over
                    comparable U.S. Department of the Treasury obligations.

Global Cash         A global cash flow analysis is a comprehensive evaluation of borrower
Flow Analysis       capacity to perform on a loan. During underwriting, proper global cash
                    flow must thoroughly analyze projected cash flow and guarantor support.
                    Beyond the individual loan, global cash flow must consider all other
                    relevant factors, including: a guarantor’s related debt at other financial
                    institutions, future economic conditions, as well as obtaining current and
                    complete operating statements of all related entities. In addition, global
                    cash flow analysis should be routinely conducted as a part of credit
                    administration. The extent and frequency of global cash flow analysis
                    should be commensurate to the amount of risk associated with the
                    particular loan.

Interest Reserve An interest reserve account allows a lender to periodically advance loan
Account          funds to pay interest charges on the outstanding balance of the loan. The
                    interest is capitalized and added to the loan balance. Frequently, ADC
                    loan budgets will include an interest reserve to carry the project from
                    origination to completion and may cover the project’s anticipated sellout
                    or lease-up period.

Loan-to-Value       A ratio for a single loan and property calculated by dividing the total loan
(LTV)               amount at origination by the market value of the property securing the
                    credit plus any readily marketable collateral or other acceptable collateral.

Material Loss       As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                    Dodd-Frank Wall Street Reform and Consumer Protection Act, for the
                    period beginning January 1, 2010 and ending December 31, 2011, a
                    material loss is defined as any estimated loss in excess of $200 million.




                                               24
                                                                                  Appendix 2

                               Glossary of Terms

Nonaccrual        The status of an asset, often a loan, which is not earning the contractual
Status            rate of interest in the loan agreement, due to financial difficulties of the
                  borrower. Typically, interest accruals have been suspended because full
                  collection of principal is in doubt, or interest payments have not been
                  made for a sustained period of time. Loans with principal and interest
                  unpaid for at least 90 days are generally considered to be in a nonaccrual
                  status.

Peer Group        Institutions are assigned to 1 of 15 peer groups based on asset size,
                  number of branches, and whether the institution is located in a
                  metropolitan or non-metropolitan area.

Prompt            The purpose of PCA is to resolve the problems of insured depository
Corrective        institutions at the least possible long-term cost to the Deposit Insurance
Action (PCA)      Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code
                  of Federal Regulations, section 325.101, et. seq., implements section 38,
                  Prompt Corrective Action, of the FDI Act, 12 United States Code section
                  1831(o), by establishing a framework for determining capital adequacy
                  and taking supervisory actions against depository institutions that are in
                  an unsafe or unsound condition. The following terms are used to describe
                  capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                  (3) Undercapitalized, (4) Significantly Undercapitalized, and
                  (5) Critically Undercapitalized.

                  A PCA Directive is a formal enforcement action seeking corrective action
                  or compliance with the PCA statute with respect to an institution that falls
                  within any of the three categories of undercapitalized institutions.

Risk-Based        A “supplemental” capital standard under Part 325 of the FDIC Rules and
Capital           Regulations. Under the risk-based framework, a bank’s qualifying total
                  capital base consists of two types of capital elements, “core capital”
                  (Tier 1) and “supplementary capital” (Tier 2).

Special Mention   A Special Mention asset has potential weaknesses that deserve
Assets            management’s close attention. If left uncorrected, these potential
                  weaknesses may result in deterioration of the repayment prospects for the
                  asset or in the institution’s credit position at some future date. Special
                  Mention assets are not adversely classified and do not expose an
                  institution to sufficient risk to warrant adverse classification.




                                             25
                                                                                 Appendix 2

                              Glossary of Terms

Tier 1 (Core)    Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R. section
Capital          325.2(v), as
                 The sum of:
                 • Common stockholder’s equity (common stock and related surplus,
                 undivided profits, disclosed capital reserves, foreign currency translation
                 adjustments, less net unrealized losses on available-for-sale securities
                 with readily determinable market values);
                 • Non-cumulative perpetual preferred stock; and
                 • Minority interest in consolidated subsidiaries;
                 Minus:
                 • Certain intangible assets;
                 • Identified losses;
                 • Investments in securities subsidiaries subject to section 337.4; and
                 • Deferred tax assets in excess of the limit set forth in section 325.5(g).

Troubled Asset   TARP was established under the Emergency Economic Stabilization Act
Relief Program   of 2008, which established the Office of Financial Stability within the
(TARP)           Department of the Treasury. Under TARP, Treasury will purchase up to
                 $250 billion of preferred shares from qualifying institutions as part of the
                 Capital Purchase Program.

Uniform Bank     The UBPR is an individual analysis of financial institution financial data
Performance      and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)    The report is produced by the Federal Financial Institutions Examination
                 Council for the use of banking supervisors, bankers, and the general
                 public and is produced quarterly from Call Report data submitted by
                 banks.

Uniform          Financial institution regulators and examiners use the Uniform Financial
Financial        Institutions Rating System (UFIRS) to evaluate a bank’s performance in
Institutions     six components represented by the CAMELS acronym: Capital
Rating System    adequacy, Asset quality, Management practices, Earnings performance,
                 Liquidity position, and Sensitivity to market risk. Each component, and
(UFIRS)
                 an overall composite score, is assigned a rating of 1 through 5, with 1
                 having the least regulatory concern and 5 having the greatest concern.

Wholesale        Wholesale funding sources include, but are not limited to, Federal funds,
Funding          public funds, Federal Home Loan Bank advances, the Federal Reserve’s
                 primary credit program, foreign deposits, brokered deposits, and deposits
                 obtained through the Internet or CD listing services. Financial institutions
                 may use wholesale funding sources as an alternative to core deposits to
                 satisfy funding and liability management needs.




                                            26
                                                                       Appendix 3
                              Acronyms

ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

BSA      Bank Secrecy Act

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to
         Market Risk

CEO      Chief Executive Officer

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FHLB     Federal Home Loan Bank

LTV      Loan-to-Value

OFR      Florida Office of Financial Regulation

OIG      Office of Inspector General

PCA      Prompt Corrective Action

SCOR     Statistical CAMELS Off-Site Rating

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System




                                       27
                                                                                       Appendix 4

                  Florida Community’s Weaknesses Identified by Examiners

                                                           Feb    Feb    Feb    Apr     Mar    Apr    Mar
Examination Date                                           2003   2004   2005   2006    2007   2008   2009
                                                           FDIC   OFR    FDIC   OFR     FDIC   OFR    FDIC
Rapid growth in loan portfolio                              √                    √
Lending based on collateral value                           √      √             √       √
Not complying with LTV requirements for loans in
                                                            √      √      √      √       √
excess of limits
No process for out-of-area loan monitoring/ analysis                             √       √
Appraisal violations                                        √      √                                   √
Weak appraisal review process                                                    √       √      √
Internal loan review process needs improvement              √                    √
CRE Concentrations
No comprehensive concentration monitoring program           √      √      √      √       √      √      √
No stress testing of CRE loan portfolio                                                  √      √      √
Concentration monitoring needs strengthening                                             √      √      √
CRE limits/thresholds too lenient/excessive                                              √      √      √
CRE 2006 Guidance not implemented                                                               √      √
Underwriting and Credit Administration
No Chief Credit Officer or credit department                                     √       √
Ineffective, decentralized credit underwriting process                           √       √
Deficient underwriting /credit administration                      √      √      √       √      √      √
Need to improve cash flow analyses                          √      √             √       √      √
Inappropriate use of interest reserves                                    √              √             √
Not complying with guidelines for principal reduction at
                                                                                         √      √      √
renewal
Need accurate and consistent credit memos                   √                            √      √
Not obtaining current financials at loan renewal                                         √             √
Not obtaining new appraisals at loan renewal                                             √             √
Excessive reliance on extensions and renewals without
                                                                                                       √
justification or support
Loan Policy
Loan policy not consistent with complexity of credit
                                                                                         √
transactions and proposed management structure
Loan policy weaknesses:
- CRE concentration strategies                                                           √
- ALLL Interagency Policy (2006) not followed                                            √      √
- Land underwriting requirements                                                         √
- Guidelines for income-producing properties                                             √
- Work-out and Special Asset programs                                     √                     √      √
- Interest Reserves                                                                                    √
Source: Reports of Examination.




                                                           28
                                                                                    Appendix 5
                                    Corporation Comments



Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990              Division of Supervision and Consumer Protection

                                                                       August 19, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson
                 Director

SUBJECT:         Draft Audit Report Entitled, Material Loss Review of Florida Community Bank,
                 Immokalee, Florida (Assignment 2010-025)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of Florida
Community Bank, Immokalee, FL (Florida Community), which failed on January 29, 2009. This
memorandum is the response of the Division of Supervision and Consumer Protection (DSC) to the
OIG’s Draft Report (Report) received on July 27, 2010.

Florida Community failed due to deficient Board and management oversight of the bank’s risk
management practices, specifically those risks associated with the commercial real estate (CRE) and
acquisition, development and construction (ADC) loan portfolios. Florida Community pursued an ADC
and CRE loan portfolio expansion strategy without implementing risk management, loan underwriting,
and credit administration practices commensurate with the increase risk. In addition, from 2004 through
2009, Florida Community relied on noncore funding sources to fuel growth, reflecting a shift in the
institution’s business plan that called for building a core deposit base to fund asset growth.

From 2004 through 2009, the FDIC and the Florida Office of Financial Regulation (OFR) conducted six
onsite risk management examinations. The FDIC also monitored current and emerging issues through
its offsite monitoring program. The 2007 FDIC examination noted that the bank’s loan portfolio
contained an elevated level of risk due to large concentrations in CRE and ADC loans and recommended
that management establish an appropriate loan portfolio diversification policy, setting limits to control
loan growth by product, market and portfolio segment. However, at the 2008 OFR examination, elevated
risk in the CRE and ADC loan portfolios continued, and the level of adversely classified assets
increased. As a result, Florida Community was downgraded to a “4” composite rating. By the 2009
FDIC examination, asset quality further deteriorated because management failed to implement effective
risk management processes or implement regulatory recommendations. Excessive CRE losses depleted
earnings and caused severe capital deficiency, and Florida Community was downgraded to a composite
“5” rating. OFR closed Florida Community on January 29, 2010, because of its inability to secure a
capital injection or interest a buyer.

In recognition that strong supervisory attention is necessary for institutions with high CRE/ADC
concentrations and volatile funding sources, DSC issued a Financial Institution Letter to banks that re-
emphasized the importance of robust credit risk-management practices for institutions with concentrated
CRE exposures and set forth broad supervisory expectations.

Thank you for the opportunity to review and comment on the Report.



                                                    29
